No. 19-941

 

 

IN THE

Supreme Court of the Anited States

BILLY DANIEL RAULERSON, JR.,
Petitioner,

Vv.

WARDEN,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

BRIEF OF AMICI CURIAE DISABILITY RIGHTS
LEGAL CENTER, NATIONAL DISABILITY RIGHTS
NETWORK, CENTER FOR PUBLIC
REPRESENTATION, GEORGIA ADVOCACY
OFFICE, STEPHEN N. XENAKIS, JAMES R.
MERIKANGAS, AND STEVEN EIDELMAN IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,577 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 27, 2020.

ih

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
